Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Robert J. Frey v. Anthony Binford Minter and Harold Blach, Jr.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on July 27, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following Counsel for the Respondents:
RESPONDENT ANTHONY BINFORD
MINTER:
Anthony Binford Minter
Fox Rothschild LLP
999 Peachtree Street NE
Suite 1500
Atlanta, GA 30309
404-962-1042
bminter@foxrothschild.com

RESPONDENT HAROLD BLACH, JR.:
Thomas Hayden Barnes
Law Office of Hayden Barnes, LLC
233 12th Street
Suite 745E
Columbus, GA 31901
706-530-0529
Fax: 706-553-4579
hayden@rivertownlawyer.com

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely, v

Jack Suber, Esq.
Principal

LtSA KAY NICHOLSON
Notary Public
i State of Maryland
Montgomery County
My conmtsiw eq>. October 12,2022

W

Sworn and subscribed before me this 27th day of July 2021.
' e

o^\

